            Office of Inspector General




December 22, 2005

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

SUBJECT: Audit Report – Intelligent Mail Data Acquisition System
         (Report Number DA-AR-06-001)

This report presents the results of our self-initiated audit of the development of the
Intelligent Mail Data Acquisition System (IMDAS), Mobile Data Collection Device
Replacement (Project Number 05WG006DA000).

                                              Background

Intelligent Mail refers to the capture and sharing of information about each mailpiece
throughout its processing, allowing end-to-end visibility. IMDAS is the cornerstone
program designed to transform the mailflow infrastructure. With IMDAS, Intelligent
Mail Devices (IMDs) will replace aging mobile data collection devices (MDCDs) used
by delivery operations to support the Delivery Confirmation and Signature
Confirmation programs. IMDs should also be able to read signatures and Postal
Service barcodes and labels. Capturing information about mail as it moves through
the distribution network supports new product offerings, internal improvements, and
revenue protection. In November 2004, the Postal Service approved an investment of
$351 million to develop and deploy 300,2141 IMDs.

MDCDs are now at the end of their useful lives, and their failure rate has increased
over the past few years. The Postal Service approved a contract with the present
supplier2 for $14.6 million to maintain MDCD components for an extended period
through December 2005.3



1
  A delivery order contract with Motorola for $294 million was approved on November 30, 2004.
2
  A contract modification with Lockheed Martin that extended the period of performance (6 months) from
September 2005 to February 2006 was approved on December 27, 2004.
3
  A contract option to reduce the extended period of performance to December 2005 (4 months) was exercised on
March 18, 2005. The cost of this contract revision has not been finalized.
Intelligent Mail Data Acquisition System                                  DA-AR-06-001



IMDAS deployment plans have been delayed from April to November 2005 because of
problems with completing the Critical Design Review and preparing for First Article
Tests (FAT). The Postal Service now plans to complete deployment by July 2006.

                          Objectives, Scope, and Methodology
The announced audit objectives were to determine whether IMDAS can provide a
consistent and reliable technology for tracking and capturing service measurement
information and can replace the current MDCDs without interruption of service and
potential cost inefficiencies. At management’s request, we revised our objectives to
focus on unit requirements and price and evaluate the cost implications of the extended
maintenance contract.

We reviewed and evaluated the justification and support for the quantity and price of
IMD units contracted for purchase. We also reviewed route information for the periods
April 2004 and March 2005 from data sources such as the Address Management
System, Delivery Confirmation Asset Management System (DCAMS), Universal
Delivery Statistics File, and Payroll – Rural Route Master File. Further, we reviewed the
number of rural and city routes by area and district, and route information obtained from
the Office of Inspector General (OIG) Computer Assisted Assessment Team. In
addition, we evaluated the support and cost implications for the extended maintenance
contract with Lockheed Martin considering schedule delays.

We further reviewed the IMDAS Decision Analysis Report (DAR) and IMDAS contract
files. We interviewed the IMDAS program manager, implementation manager,
contracting officer, and other members of the IMDAS project team from Intelligent Mail
and Address Quality, Engineering – Delivery and Retail, Engineering – Technical
Acquisition Management, and Engineering – Automation Category Management Center.
Finally, we attended the IMDAS critical design review meeting in February 2005 and
monthly technical review meetings, and we participated in weekly teleconferences on
program status.

We conducted this audit from February through December 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We did not test the
validity of the underlying system data used. We discussed our observations and
conclusions with management officials and included their comments where appropriate.

                                      Prior Audit Coverage
We did not identify any prior audits or reviews related to this review.




                                               2
Intelligent Mail Data Acquisition System                                 DA-AR-06-001



                                           Results
Overall, the Postal Service’s initial requirement for IMD units is reasonable
because of a conservative purchase approach and a strategy for additional
purchases. In addition, a competitive vendor solution and shared order strategy
allow for cost-effective unit prices and discounts. Although unit requirements and
the process used to negotiate price were logical, we are concerned about the risk
of higher maintenance costs if deployment is delayed further.

IMD Unit Requirements and Price

As shown below, the initial unit purchase was 12 percent below the current
MDCD quantity, indicating that program management was conservative with its
initial buy. This conservative approach is demonstrated through lower purchase
requirements despite continual growth of possible deliveries and routes. (See
Appendix A.)

                                                                        Proposed
                                             Current MDCD                  IMD
             User Type                         Quantity                 Quantity
City and Rural Routes                                 234,477                234,477
Clerks (Post Office Boxes,                             38,698                 38,698
Firms, etc.)
Highway Contract Routes                                 8,330                  8,330
Collection and Parcel Routes                           12,476                 12,476
Processing Plants                                       1,299                    819
Other                                                   2,703                  2,703
On-Site Spares                                         44,896                  2,711
TOTAL QUANTITY                                        342,879                300,214

Most notable is the reduction in unit requirements for on-site spares. According
to the DAR, the reduction in spares is because the Postal Service anticipates a
much lower failure rate for the new units than that which is being experienced
with the replaced units. In addition, rather than providing on-site spares at
almost every facility, spares will be prepositioned at the district level and
distributed as needed.

In addition, while validating the unit need for the various categories of user types,
we noted the following:

    •   The end user, Delivery Operations, wanted one-for-one replacement of
        units dedicated to city and rural routes, which represent 78 percent of the
        purchase. We initially questioned including the approximately
        17,000 auxiliary routes in this group. We were also concerned about
        various data sources giving different route totals. However, these


                                              3
Intelligent Mail Data Acquisition System                                  DA-AR-06-001



          concerns were offset by Delivery Operations’ perceived need for more
          units, the overall reductions in spares, and the expected growth in routes.

      •   Information from the DAR was insufficient to validate three line items
          representing 18 percent of the purchase – Collection and Parcel Routes,
          clerks, and other user types. Although program management
          spreadsheets contained summary numbers collected from DCAMS, the
          time period used for these categories was longer than the history
          maintained by the system. Nevertheless, we believe any risk of
          overbuying for these categories is offset by the reduced number of spares
          needed and the continual growth of deliveries and routes.

      •   The DAR backup information supported highway contract routes and
          processing plant categories representing 3 percent of the purchase.

In assessing the consequences for underbuying IMDAS units, we determined
that the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxx

Although the Postal Service may strengthen documentation for unit requirements for
future purchases, the overall unit requirements are conservative, and the acquisition
strategy allows future purchases to occur at similar unit costs. Therefore, we are not
making recommendations at this time.

Delayed Deployment Risks

Although IMD unit requirements were reasonable, we noted some risk of higher
maintenance costs because of delayed deployment. In particular, the IMDAS program
allows 3 months4 for unanticipated deployment delays. However, if delays extend
beyond the 3-month period, the Postal Service will have to further extend its
maintenance contract for the old devices. The current maintenance contract with
Lockheed Martin averages $2.4 million per month.

We are concerned that recent unanticipated challenges, such as In-Plant FAT delays
occurring because the vendor was not ready, and the July 2005 failure of the

4
    October to December 2005.



                                               4
Intelligent Mail Data Acquisition System                                 DA-AR-06-001



Engineering FAT, may delay the deployment schedule beyond 3 months. Delays could
also increase other program costs, such as:

    •    Expenses for storing computer equipment.
    •    The subcontractor’s costs for site preparation and equipment installation.
    •    The program owner’s administrative expenses.

Program management and the vendor are developing a recovery plan.

Recommendation

We recommend the senior vice president, Intelligent Mail and Address Quality:

    1.    Ensure the recovery plan minimizes delays in the deployment schedule and
          negotiate consideration with Motorola if the current maintenance contract
          requires further extension.

Management’s Comments

Management agreed with the recommendation and stated they have commenced
actions addressing the findings. This includes taking specific steps to ensure delivery of
a quality product while minimizing delays in the recovery plan. Management asserts
these steps will ensure the Postal Service receives appropriate compensation for delays
in the program. Management stated they advised the supplier that consideration will be
due and negotiated when the supplier demonstrates a stable schedule that is moving
towards deployment. Management further stated the supplier has acknowledged that
consideration will be necessary in revising the delivery schedule via contract
modification. Management’s comments, in their entirety, are included in Appendix B of
this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions taken or planned should correct the issues identified in the findings.

The Office of Inspector General (OIG) considers the recommendation significant, and
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.




                                              5
Intelligent Mail Data Acquisition System                            DA-AR-06-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2300.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Ellis A. Burgoyne
    Walter O’Tormey
    James W. Buie
    Aron M. Sanchez
    Steven R. Phelps




                                           6
Intelligent Mail Data Acquisition System                                                         DA-AR-06-001




                            APPENDIX A. MAIL DELIVERY GROWTH5


                   City Delivery Route Growth if Deliveries are Not Absorbed
     # Deliveries                                                                                # Routes
      90,000,000                                                                                      170,000

                                                                                                      169,000
      88,000,000
                                                                                                      168,000
      86,000,000
                                                                                                      167,000
      84,000,000                                                                                      166,000

      82,000,000                                                                                      165,000

                                                                                                      164,000
      80,000,000
                                                                                                      163,000
      78,000,000
                                                                                                      162,000

      76,000,000                                                                                      161,000




             05
             95

             96

             97

             98

             99

             00

             01

             02

             03

             04



             06

             07

             08

             09

             10
           20
           19

           19

           19

           19

           19

           20

           20

           20

           20

           20



           20

           20

           20

           20

           20
                               Cit y Possible Deliveries                  Cit y Rout es


SOURCE: Delivery Operations Website, September 2005




5
  Our intent is to show the changes in city routes over time as it relates to the growth in delivery points. Historically,
factors such as delivery operations, mail volume changes and automation have allowed for the absorption of delivery
point growth without equal growth in routes. However, the forecast for FY 2006-2010 shows a growth in routes if
delivery points are not absorbed. The second chart also shows total rural routes growth over the last 20 years.



                                                            7
Intelligent Mail Data Acquisition System                                                        DA-AR-06-001




                                            TOTAL RURAL ROUTES

     75000

     70000

     65000

     60000

     55000

     50000

     45000

     40000

     35000

     30000

     25000

     20000

     15000

     10000

      5000

         0
             85   86   87   88   89   90   91   92   93       94   95   96   97   98   99   0    1   2   3     4   13-5



      SOURCE: Delivery Operations Website, September 2005




                                                          8
Intelligent Mail Data Acquisition System          DA-AR-06-001



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                           9
Intelligent Mail Data Acquisition System        DA-AR-06-001




                                           10
